           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

              FOLLOW-UP:
 THE SOCIAL SECURITY ADMINISTRATION’S
      PROCEDURES FOR ADDRESSING
   EMPLOYEE-RELATED ALLEGATIONS

      January 2009   A-13-08-18077




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                    SOCIAL SECURITY
MEMORANDUM

Date:   January 20, 2009                                                      Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Follow-up: The Social Security Administration’s Procedures for Addressing
        Employee-related Allegations (A-13-08-18077)


        OBJECTIVE
        Our objective was to determine the extent to which the Social Security Administration
        (SSA) had implemented recommendations from a series of reports on employee-related
        allegations we issued in Fiscal Years (FY) 2004 and 2005.

        BACKGROUND

        Employee-related allegations can originate from various sources, including SSA
        employees, the public, congressional inquiries, internal security reviews, or the Office of
        the Inspector General (OIG). These allegations are referred to the Offices of the
        Regional Commissioners (ORC) and/or SSA Headquarters components for review.

        Examples of employee-related allegations include standards of conduct violations;
        ethics violations; potential criminal violations; the theft of Government property; and
        allegations of rude, discourteous, or poor service where a specific employee is named.
        Allegations concerning SSA employees are significant because of the potential losses to
        SSA’s programs and the corresponding negative impact on the public.

        Generally, the ORCs review those allegations that involve an employee in that region.
        ORCs review allegations that do not appear to involve fraud, for example, service
        delivery issues. The Centers for Security and Integrity (CSI) within the ORCs, review
        employee-related allegations that appear to involve fraud. Employee-related allegations
        that are potential criminal violations must be referred to the OIG for appropriate action.
Page 2 - The Commissioner


In FYs 2004 and 2005, we issued 11 reports on SSA’s procedures for addressing
employee-related allegations. We issued 1 report to each of the 10 Regional
Commissioners and 1 report to the Deputy Commissioner for Systems. In each report,
we discussed the management of employee-related allegations. In the report issued to
the Boston Regional Commissioner, 1 we indicated employee-related allegations were
addressed and potential criminal violations were referred to the OIG. However, in the
remaining 10 reviews, we identified deficiencies in the Agency’s management of
employee-related allegations. To address these deficiencies, we made specific
recommendations in each of the reports. Most of these reports had similar
recommendations focusing on three specific issues:

   implementing a control system to document the receipt, development, and
    disposition of allegations (8 reports);
   retaining documentation related to employee-related allegations (7 reports); and
   referring potential criminal violations to the OIG for investigation (5 reports).

To determine the extent to which SSA had implemented the recommendations for these
three issues, we examined data from (1) ORC and CSI employee-related allegation
control logs; (2) our Office of Investigations’ National Investigative Case Management
System (NICMS); and (3) Office of the Deputy Commissioner for Operations and Office
of Systems (OS) documentation supporting the allegations. We also reviewed data
pertaining to adverse personnel actions provided by the Office of Personnel under the
Deputy Commissioner for Human Resources. In total, we reviewed 10 control logs;
selected and examined 123 employee-related allegations; 2 and assessed 32 adverse
actions. See Appendix B for a detailed discussion of our scope and methodology and
Appendix C for our sampling methodology.

RESULTS OF REVIEW
Generally, we found SSA implemented the recommendations most often made in our
FY 2004 and 2005 series of reports on employee-related allegations.

Issue 1: We made recommendations in eight reports concerning SSA implementing a
control system that documents the receipt, development, and disposition of
employee-related allegations. The seven Regional Commissioners agreed with our
recommendations. However, OS did not agree with our recommendation.




1
 The Social Security Administration’s Procedures for Addressing Employee-Related Allegations in
Region I (A-01-04-14091), October 7, 2004.
2
 The term "allegation” is used generically in this report to refer to a specific instance that could involve
one or more accusations made against an individual or group.
Page 3 - The Commissioner


Our prior reviews found problems with the Agency’s receipt, development, and/or
disposition of employee-related allegations. Several ORCs monitored and tracked
activities only for allegations referred by the OIG. Oversight did not always occur for
allegations received from sources other than the OIG. In many of our prior reviews, we
found that SSA did not preserve records to support the Agency’s actions on allegations.
SSA did not always retain those records for the required time period.

During our follow-up review, we requested copies of employee-related allegation control
logs from ORCs, CSI and OS for January 1, 2006 through September 10, 2007.
Specifically, we requested from each ORC and OS copies of control logs that identified
employee-related allegations received from sources other than the OIG. 3 All ORCs
provided control logs. However, OS did not.

As indicated in our October 2004 report, the Deputy Commissioner for Systems, in
coordination with staff in the Office of Human Resources, did not concur with our
recommendation. Rather, it stated that “Any control system as described in the OIG
recommendations would have to be part of a system of records established under the
provisions of the Privacy Act.” It was further stated “Any system of records would have
to be consistent with existing and future collective bargaining agreements.” However,
based on the prior acceptance of related recommendations by the regional offices and
use of allegation control logs by the ORCs, we continue to believe OS should implement
our recommendation.

Of the 10 controls logs we received and reviewed, we found 8 ORCs had control
systems to track employee-related allegations received from sources other than the
OIG. 4 Staff from the Kansas City and Chicago ORCs explained employee-related
allegations from sources other than the OIG had not been received for the period
related to our data request. In addition, staff indicated such allegations, if received,
would be controlled in a tracking system.

With the exception of OS, our follow-up review found appropriate actions had been
taken regarding tracking the receipt, development, and disposition of employee-related
allegations. However, the use of allegation control logs, including allegations received
from sources other than the OIG, should be made uniform Agency-wide.




3
  We did not limit the request for information to the seven ORCs who agreed with our recommendations.
Instead, we requested information from all ORCs and OS. This was done so that we could, if the data
were provided, determine whether similar conditions existed during our review period. See Appendix B
for a detailed discussion of our scope and methodology.
4
 The Denver ORC was unable to provide a control log for the requested period. However, the Region
provided a log for the period January through April 2008. We examined this control log for our review.
Page 4 - The Commissioner


Issue 2: We made recommendations in seven reports about SSA retaining
documentation related to employee-related allegations. All regions agreed with our
recommendations.

Our prior reviews identified concerns in retaining documentation on employee-related
allegations. For example, we reported 1 ORC did not retain complete records for
4 (19 percent) of the 21 allegations received from OIG. The lack of documentation
limits management’s ability to determine whether appropriate actions were taken to
resolve an allegation. We believe SSA management should be able to verify whether
staff complied with its applicable policies and procedures. Insufficient documentation
hampers management’s ability to identify recurring problems related to specific
locations and/or employees.

For our follow-up audit, we reviewed a random sample of 123 employee-related
allegations. The allegations were selected from NICMS and the control logs provided
by the ORCs. 5 Allegations selected from NICMS pertained to employee-related
allegations our Office of Investigations had referred to the Agency for further review.
Our current review found documentation was retained related to the employee-related
allegations. Of the 123 allegations, the ORCs and OS provided documentation related
to 116 (94 percent). See Table 1 for more information.

                    Table 1: Employee-related Allegation Documentation

                                                            Documentation Not
             Region/                                          Provided for
           Component           Allegations Reviewed            7 Allegations
                                      ORCs’                        ORCs
                              NICMS   Logs      Total   NICMS      Logs      Total
             Atlanta            11      7        18       1         4         5
             Boston             3      10        13       --        --        --
            Chicago             8       --       8        1         --        1
              Dallas            4      10        14       --        --        --
             Denver             1       5        6        --        --        --
           Kansas City          --      --       0        --        --        --
            New York            9      10        19       --        --        --
           Philadelphia         5      10        15       --        1         1
          San Francisco         8      10        18       --        --        --
             Seattle            1       9        10       --        --        --
            Office of
            Systems            2        --       2        --         --        --
               Total           52       71      123       2          5         7

Of the seven allegations for which no documentation was provided, five were referred to
the ORCs from sources other than the OIG, and two pertained to allegations referred

5
    See Footnote 3 on p. 3.
Page 5 - The Commissioner


from OIG to the ORCs for further development. 6 Staff from the Atlanta ORC explained
records were not available for four allegations because, at the time, the ORC was not
scanning paper records containing information about the allegations. Staff also
explained documentation was not provided for one of the OIG-referred employee-
related allegations, because they were advised by the Allegation Management and
Fugitive Enforcement Division (AMFED) 7 that it preferred the ORC no longer provide
documentation unless fraud was involved. While documentation is not required by
AMFED unless fraud is involved, it was not AMFED’s intent that Agency staff not retain
documentation related to employee-related allegations. For the remaining two
allegations for which documentation was not provided, staff from the Chicago and
Philadelphia ORCs did not provide explanations.

Our follow-up audit concluded that the documentation the ORCs and OS retained was
sufficient and reliable to support ORC and OS dispositions of the allegations reviewed.
The Atlanta ORC did not provide documentation for about 28 percent of its items
included in our sample. However, we believe the ORC’s new process for scanning
paper records will improve the ORC’s document retention.

Issue 3: We made similar recommendations in five reports to ORCs that SSA refer
allegations with potential criminal violations to the OIG. Four Regional Commissioners
agreed with our recommendations. However, the New York Regional Commissioner did
not agree with our recommendation.

In our prior reviews, we found that ORCs did not refer all potential criminal cases to the
OIG for investigation. For example, we previously reported that an SSA beneficiary
alleged that a field office employee had stolen her identity. The employee subsequently
retired, and ORC took no other actions. The ORC did not believe pursuing an
administrative suspension was feasible since the employee had retired. While
administrative sanctions were limited after the employee retired, criminal action may still
have been possible. Our Office of Investigations indicated this case should have been
referred to OIG for investigation.

During our follow-up audit, we requested the Office of Personnel provide information
about adverse personnel actions involving SSA employees from January 2006 through
September 2007. A total of 162 adverse actions were taken during this period. Of
these, 130 actions pertained to employee performance issues. We reviewed additional
information for the remaining 32 actions to determine whether these instances were
employee-related allegations that potentially involved criminal violations.

For the period reviewed, we did not identify any adverse personnel actions involving
potential employee criminal violations that had not been referred to OIG. Of the

6
  Development includes, but is not limited to, actions to determine whether allegations can be
substantiated. SSA policies and procedures provide guidance for the appropriate development activities
to complete.
7
    Formerly the Allegation Management Division.
Page 6 - The Commissioner


32 actions identified, we determined 15 had been referred to the OIG for investigation.
We reviewed additional documentation provided by the Agency’s Human Resources
offices for the remaining 17 adverse personnel actions and determined none involved
potential criminal violations.

For the period January 2006 through September 2007, nothing came to our attention
that led us to believe the ORCs and OS did not refer employee-related allegations with
potential criminal violations to the OIG.

CONCLUSION AND RECOMMENDATION
Based on the results of our review, we believe the Agency acted on the
recommendations made most often in our FY 2004 and 2005 reports on employee-
related allegations. SSA acted on the recommendations pertaining to control systems,
document retention, and potential criminal violation referrals to the OIG. Although the
Atlanta ORC did not provide information concerning five allegations, we believe the
practice of scanning paper records will improve its retention of employee-related
allegation documents.

During our review, we found all ORCs used control systems for their employee-related
allegations, but OS had not yet implemented a control system. These systems enabled
the ORCs to document the receipt, development, and disposition of allegations. We
believe the resolution of employee-related allegations should be monitored and tracked
Agency-wide. As such, we again recommend OS use a control system to ensure all
employee-related allegations are tracked and monitored.

AGENCY COMMENTS

The Agency agreed with our recommendation. The Agency has established a
workgroup to assist with the implementation of the recommendation. The control
system will be used to track and monitor employee-related allegations referred to the
Deputy Commissioner for Systems.



                                            S
                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
CSI     Centers for Security and Integrity
FY      Fiscal Year
NICMS   National Investigative Case Management System
OIG     Office of the Inspector General
ORC     Office of the Regional Commissioner
OS      Office of Systems
SSA     Social Security Administration
                                                                                       Appendix B

Scope and Methodology
Our objective was to determine the extent to which the Social Security Administration
(SSA) had implemented recommendations from a series of reports on employee-related
allegations we issued in Fiscal Years 2004 and 2005. The recommendations contained
in these 11 reports pertained to the operations of the Offices of the Regional
Commissioners (ORC) and Systems (OS). The scope of work completed was not
based on whether we recommended a specific action be implemented by a specific
ORC or OS. Instead, we reviewed allegations for all ORCs and OS concerning the
three employee-related allegation issues we identified as the most common in our prior
reports. This was done so we could, if appropriate data were provided, determine
whether certain problematic conditions existed in any ORC or in OS during our review
period.

To accomplish our objective, we:

     Identified and reviewed SSA’s policies and procedures related to the
      management of employee-related allegations.

     Reviewed prior Office of the Inspector General (OIG) reports.

     Coordinated with SSA personnel familiar with the employee-related allegation
      management process.

     Analyzed employee-related allegation control logs provided by the ORC,
      containing allegations received in the region from sources other than the OIG.
      We requested control logs from the ORCs and OS for the period January 1, 2006
      through September 10, 2007. We received 10 logs from the ORCs. We reviewed
      a sample of 123 allegations 1 and selected 71 employee-related allegations from
      the control logs (see Appendix C for our Sampling Methodology).

     Obtained and analyzed an electronic data extract of employee-related allegations
      from our Office of Investigations’ National Investigative Case Management
      System (NICMS). The allegations were referred from OIG to the ORCs and OS
      for further development. 2 The dispositions for these allegations were made by
      the Agency and returned to our Office of Investigations from January 1, 2006
      through September 10, 2007. There were 300 OIG-referred, employee-related

1
 The term "allegation” is used generically in this report to refer to a specific instance that could involve
one or more accusations made against an individual or group.
2
 Development includes, but is not limited to, actions to determine whether allegations can be
substantiated. SSA’s policies and procedures provide guidance for the appropriate development
activities to complete.


                                                     B-1
      allegations during this period. We reviewed a sample of 123 allegations, of which
      52 employee-related allegations were selected from NICMS. (See Appendix C for
      our sampling methodology.)

    Obtained and reviewed an electronic data extract of adverse personnel actions
     taken against SSA employees from the Office of Personnel under the Office of the
     Deputy Commissioner for Human Resources during the period January 2006
     through September 2007. There were 162 adverse actions processed during this
     period. We reviewed information pertaining to 32 adverse actions.

    Requested ORCs, OS and the Office of Personnel provide documentation to
     support the employee-related allegations and adverse actions reviewed.

We determined the NICMS electronic data used in this report to be sufficiently reliable
given our audit objective and the intended use of the data. Further, any data limitations
were minor in the context of this assignment, and the use of the data should not lead to
an incorrect or unintentional conclusion. The accuracy of the data extract was tested by
tracing individual data fields needed to meet our objective from the electronic data
extract to information recorded in SSA’s information systems including the Master
Beneficiary Record, Supplemental Security Record, Representative Payee System,
and/or the Microsoft Outlook employee email listing. Validity of the data was assessed
by determining whether data fields that should have specific data types contained those
data types. Lastly, we assessed completeness by reviewing the data extract for illogical
data entries, unrealistic values or dates, or missing data entries.

We did not determine the reliability of the adverse personnel action data file received
from the Office of Personnel. However, we were able to use the data for our intended
purpose. The data obtained were used to verify whether potential criminal violations
were referred to OIG.

We conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives. We
conducted this review between January and November 2008. The entities reviewed
were the Offices of the Deputy Commissioner for Operations and the Deputy
Commissioner for Systems.




                                          B-2
                                                                                       Appendix C

Sampling Methodology
We reviewed a sample of 123 allegations 1 using 2 sampling frames. Of the
123 allegations, we selected 71 from the Offices of the Regional Commissioner (ORC)
employee-related allegation control logs and 52 from the electronic data extract from
our Office of Investigations’ National Investigative Case Management System (NICMS).
Selected allegations were reviewed to determine whether SSA retained documentation
related to employee-related allegations.

During our current review, we requested copies of employee-related allegation control
logs from the ORCs and the Office of Systems (OS) for the period January 1, 2006
through September 10, 2007. Specifically, we requested from the 10 ORCs and OS
copies of control logs that identified employee-related allegations received from sources
other than the OIG. The 10 ORCs provided control logs. Of the 10 controls logs
reviewed, 8 tracked both employee-related allegations received from OIG and those
received from sources other than the OIG. Employee-related allegations recorded in
these logs comprised the first sampling frame. We excluded the remaining two control
logs from the sampling frame because both logs contained only employee-related
allegations referred by OIG to the ORC. A total of 666 allegations were included in this
sampling frame.

We selected random samples of 10 allegations from each of the 8 control logs. If the
log contained fewer than 10 allegations, we reviewed 100 percent of the employee-
related allegations that were recorded in the log. We reviewed a total of 71 allegations.
The following table provides the details of the first sampling frame selection.




1
 The term "allegation” is used generically in this report to refer to a specific instance that could involve
one or more accusations made against an individual or group.


                                                     C-1
                   Table1: Employee-related Allegation Control Log Data

           Region/                   Location              Total Allegations            Sample
          Component                                         in Control Log             Reviewed
       Region I                      Boston                          70                      10
       Region II                    New York                        219                      10
       Region III                 Philadelphia                      145                      10
       Region IV                     Atlanta                          7                       7
       Region V                      Chicago
       Region VI                      Dallas                        112                      10
       Region VII                  Kansas City
       Region VIII                   Denver                           7                       52
       Region IX                 San Francisco                       97                      10
       Region X                       Seattle                         9                       9
       Headquarters             Office of Systems
              Total                                                666                      71

For the second sampling frame, we obtained an electronic data extract of employee-
related allegations from NICMS. Specifically, these were allegations that (1) OIG had
referred to the ORCs and OS for further development and (2) SSA determined
dispositions for the allegations and notified OIG of the dispositions during the period
January 1, 2006 through September 10, 2007. A total of 300 allegations were included
in this sampling frame. Of the 300, we reviewed a sample of 52 allegations. We
randomly selected 50 employee-related allegations previously referred to the ORCs. In
addition, we reviewed the two allegations referred by OIG to OS during our review
period.

We forwarded a total of 123 employee-related allegations to the Office of the Deputy
Commissioner for Operations for distribution to the appropriate office. We requested
copies of the documentation related to the allegations. We reviewed the documentation
provided by the offices and determined whether the documentation reasonably
supported the ORCs’ conclusions and development pertaining to the allegations.
Development includes actions to determine whether allegations can be substantiated.
SSA’s policies and procedures provide guidance for the appropriate development
activities. 3 Of the 123 allegations reviewed, we received documentation for 116. We
found the documentation provided was sufficient and reliable to support ORC and OS
dispositions of these allegations. Documentation was not provided for the remaining
seven allegations.

2
  Of the seven allegations included in the log, two involved ongoing investigations, and were excluded
from our review. Therefore, we reviewed the remaining five allegations from the Denver ORC.
3
    Program Operations Manual System, GN 04110.010 Developing Violations.




                                                   C-2
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      January 7, 2009                                                        Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Follow-up: The Social Security
           Administration’s Procedures for Addressing Employee-related Allegations” (A-13-08-18077)--
           INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate the
           comprehensive work that the OIG auditing team did on this report and the prior related audits.
           Our response to the report findings and recommendation is attached.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT “FOLLOW-UP: THE SOCIAL SECURITY ADMINISTRATION’S
PROCEDURES FOR ADDRESSING EMPLOYEE-RELATED ALLEGATIONS”
(A-13-08-18077)


Recommendation

The Office of Systems should use a control system to ensure all employee-related allegations are
tracked and monitored.

Comment

We agree. We have established a workgroup to assist with the implementation of this
recommendation. The control system will be used to track and monitor employee-related
allegations referred to the Deputy Commissioner for Systems.




                                              D-2
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, Evaluation Division 410-966-9365

   Randy Townsley, Audit Manager, Evaluation Division 410-966-1039

Acknowledgments

In addition to those named above:

   Nicole Gordon, Auditor

   Parham Price, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-13-08-18077.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
